HHS/OIG, Audit - "Review of Quality Improvement Organization in Ohio for
August 1, 2002, Through July 31, 2005," (A-05-06-00043)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Quality Improvement Organization in Ohio for August 1, 2002, Through July 31,
2005," (A-05-06-00043)
February 27, 2008
Complete
Text of Report is available in PDF format (728 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Senate Finance Committee requested that we assess the
fiscal integrity of the Medicare Quality Improvement Organizations with respect
to six specified fiscal integrity areas.
Of the $7.7 million of costs reviewed, $7.6 million appeared reasonable for
Federal reimbursement.  Of the remaining costs, Ohio KePRO Inc. incurred $11,874
for costs that were unallowable and $78,267 for costs that may not have complied
with Federal requirements.
We recommended that Ohio KePRO (1) refund $1,622 identified as unallowable
direct conference-related costs; (2) reduce the indirect cost pool by $10,252
identified as unallowable indirect costs; (3) work with the CMS contracting
officer to determine what portion of the $78,267 incurred for unsupported
subcontractor labor and conference costs should be excluded from Federal
reimbursement; and (4) maintain all Government-owned equipment in accordance
with Federal Acquisition Regulation requirements, including performing periodic
reconciliations of inventories, keeping complete inventory records, and
reporting any excess equipment.  Ohio KePRO generally disagreed with the
recommendations.